Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Justice Programs Cooperative Agreement Administered by the National Council of Juvenile and Family Court Judges Agreement Number 1998-MU-VX-K016Reno, Nevada

Report No. GR-90-04-003


January 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Drug Court Training and Technical Assistance Program Juvenile Initiative cooperative agreement awarded by the U.S. Department of Justice, Office of Justice Programs (OJP) to the National Council of Juvenile and Family Court Judges (NCJFCJ) located in Reno, Nevada.  The purpose of this agreement was to provide training and technical assistance for jurisdictions that are developing, improving, or enhancing juvenile drug courts.  As of September 30, 2001, the NCJFCJ was awarded a total of $2,904,655 to equip jurisdictions with the knowledge and skills to strengthen their efforts in providing effective treatment to juveniles by promoting the abilities and potential of the child, encouraging abstinence, and reducing recidivism.  We tested the NCJFCJ accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.
Our audit revealed that controls over the accounting process and records related to the grant were adequate.  We found the NCJFCJ to be in compliance with OJP's grant requirements.  We reviewed the NCJFCJ's compliance with essential grant conditions and found no weaknesses in the NCJFCJ's accounting records.  However, the NCJFCJ did not submit all of its progress reports timely.
These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in the Appendix.